<html>
<title> - YUCCA MOUNTAIN: BROKEN MANAGEMENT, BROKEN QUALITY ASSURANCE, BROKEN PROJECT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




  YUCCA MOUNTAIN: BROKEN MANAGEMENT, BROKEN QUALITY ASSURANCE, BROKEN 
                                PROJECT

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2006

                               __________

                           Serial No. 109-206

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                               _______


                    U.S. GOVERNMENT PRINTING OFFICE

32-439 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001






















                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Shannon Meade, Professional Staff Member
                           Alex Cooper, Clerk
            Tania Shand, Minority Professional Staff Member





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2006...................................     1
Statement of:
    Wells, Jim, Director, Natural Resources and Environment, U.S. 
      Government Accountability Office; Gregory Friedman, 
      Inspector General, U.S. Department of Energy; Margaret 
      Federline, Deputy Director, Office of Nuclear Material 
      Safety and Safeguards, U.S. Nuclear Regulatory Commission; 
      and Paul Golan, Acting Director, Office of Civilian 
      Radioactive Waste Management, U.S. Department of Energy....     9
        Federline, Margaret......................................    42
        Friedman, Gregory........................................    33
        Golan, Paul..............................................    52
        Wells, Jim...............................................     9
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    76
    Federline, Margaret, Deputy Director, Office of Nuclear 
      Material Safety and Safeguards, U.S. Nuclear Regulatory 
      Commission, prepared statement of..........................    44
    Friedman, Gregory, Inspector General, U.S. Department of 
      Energy, prepared statement of..............................    36
    Golan, Paul, Acting Director, Office of Civilian Radioactive 
      Waste Management, U.S. Department of Energy, prepared 
      statement of...............................................    55
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     4
    Wells, Jim, Director, Natural Resources and Environment, U.S. 
      Government Accountability Office, prepared statement of....    11


























 
  YUCCA MOUNTAIN: BROKEN MANAGEMENT, BROKEN QUALITY ASSURANCE, BROKEN 
                                PROJECT

                              ----------                              


                        TUESDAY, APRIL 25, 2006

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Issa, and Norton.
    Also present: Representative Gibbons.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director/chief counsel; Shannon Meade, 
professional staff member; Alex Cooper, legislative assistant; 
Michelle Triestman, GAO detailee; Tania Shand, minority 
professional staff Member; and Teresa Coufal, minority 
assistant clerk.
    Mr. Porter. Good afternoon everyone. Welcome. I appreciate 
you all being here today.
    I would like to bring the meeting to order, this meeting of 
the Subcommittee on the Federal Workforce and Agency 
Organization.
    Today marks the third hearing the subcommittee has held 
with regard to its investigation of the Yucca Mountain Project. 
Today's hearing is about mismanagement and the problems that 
flow from it.
    Last year, when the USGS e-mails surfaced indicating 
quality assurance deficiencies, I requested the Government 
Accountability Office to conduct a followup study of the 
Department of Energy's quality assurance program. GAO recently 
completed the study and released its report entitled Quality 
Assurance at DOE's Planned Nuclear Waste Repository Needs 
Increased Management Attention. Today's hearing will examine 
these findings in more detail.
    The GAO study examined, No. 1, the history of the Project's 
quality assurance problems; No. 2, DOE's tracking of these 
problems and efforts to address them; and, No. 3, challenges 
facing DOE as it continues to address quality assurance issues 
within the Project.
    First, GAO found that DOE has had a long history of quality 
assurance problems at Yucca Mountain. In the late 1980's and 
1990's, DOE had problems assuring the Nuclear Regulatory 
Commission that it had developed adequate plans and procedures 
related to quality assurance. More recently, as it prepares to 
submit a license application to the NRC, DOE has been relying 
on costly and time-consuming rework to resolve lingering 
quality assurance problems uncovered during audits and after-
the-fact evaluations.
    The subcommittee's investigation sheds some light on these 
findings. Subcommittee investigators have interviewed current 
and former high-level quality assurance personnel. There is a 
consensus among those interviewed professionals that the type 
of audits conducted by the program today are ineffective at 
addressing quality assurance problems. Specifically, QA 
Management has shifted from conducting performance-based audits 
to compliance audits, which look at adherence to general 
procedures only. The ability to identify substantive issues and 
technical weaknesses makes performance-based audits more 
effective in correcting problems head on. This shift to 
compliance audits restrict's DOE's ability to identify and 
correct problems, which was a poor management decision.
    Second, GAO found that DOE cannot be certain its efforts to 
improve quality assurance have been effective because of 
ineffective management tools.
    For example, in 2004, DOE announced it was making a 
commitment to continuous quality assurance improvement and that 
its efforts would be tracked by performance indicators that 
would enable it to assess progress and direct management 
attention as needed. However, GAO found that the Project's 
performance indicators and other management tools were not 
effective for this purpose. Specifically, the management tools 
did not target existing areas of concern and did not track 
progress in addressing them. The tools also had weaknesses in 
detecting and highlighting significant problems for management 
attention.
    Finally, GAO found that DOE continues to face a number of 
quality assurance and other challenges.
    First, DOE is engaged in extensive efforts to restore 
confidence in scientific documents because of the quality 
assurance problems raised in the USGS e-mails. At the 
recommendation of the DOE Inspector General, the Department has 
about 14 million more project e-mails to review.
    Second, DOE faces quality assurance challenges in resolving 
design control problems associated with its requirements 
management process. The process for ensuring the high-level 
plans and regulatory requirements are incorporated in specific 
engineering details. In fact, problems with this process lead 
to the recent December 2005, work suspension of certain project 
work.
    And, third, DOE is challenged by management continuity. In 
just the last year, the Project lost its program director, 
licensing manager and quality assurance director in all key 
managerial positions--pardon me--all key managerial position.
    GAO findings in this report present real concerns that the 
Department is running an ineffective program that has not 
implemented quality as a top priority and DOE's management of 
this project is to blame.
    The importance of a rigorous quality assurance program is 
paramount to a project of this magnitude. All of the scientific 
data and engineering design submitted to support a license for 
Yucca Mountain should be credible, have to be credible, have to 
be reliable, have to be traceable, have to be transparent. In 
short, if quality assurance is not in place, the NRC could and 
should reject the license application on that ground alone.
    Moreover, already $9 billion has been spent. $9 billion has 
been spent on this project. Rather than appropriating more 
money and pushing legislation through to expedite the Project, 
these serious problems should be fixed.
    This is clearly a project that is consistently failing 
under the weight of its own mismanagement and ineptitude at 
correcting reoccurring quality assurance deficiencies. In fact, 
in recent weeks, Secretary Bodman himself conceded the Yucca 
Mountain Project has been poorly managed and labeled the 
Project--and this is his own word--``broken.''
    Mr. Bodman is preceded by Energy Secretaries who did not 
provide the necessary quality assurance and oversight, 
including Secretary Richardson of the Clinton administration 
under whose watch two USGS scientists e-mailed accounts of 
fabricating quality assurance data to multiple recipients.
    Despite a clear record of mismanagement, however, it is 
important to recognize that the vast majority of Federal 
employees are reliable and hard-working individuals. It is 
unfortunate that management structure and the procedures at the 
Yucca Mountain Project have impaired their ability to perform. 
Therefore, I want to take a moment to recognize those Federal 
employees who have worked and continue to work very hard on 
this project.
    If this were NASA and this were a space shuttle, the space 
shuttle would not fly. We have a program that is broken, and 
the reason we are here today is to continue our investigation 
in looking at the Department of Energy and its management.
    [The prepared statement of Hon. Jon C. Porter follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Porter. I would like to thank, of course, our witnesses 
who are here today; and I would like to first really recognize 
my colleague to my immediate left, and that is Congressman 
Gibbons from Nevada. Welcome.
    Mr. Gibbons. Well, Mr. Chairman, first of all, I want to 
thank you for your leadership on this issue and thank you for 
what this committee is doing in terms of highlighting the very 
sincere problems that all of us feel this issue has; and I want 
to also thank you for inviting me to participate with the 
committee today in hearing this issue.
    Before I allow for you to continue, Mr. Chairman, I would 
hope that my full and written statement can be entered into the 
record on this issue.
    But since the proposed Yucca Mountain Project has begun, 
and it was started over two decades ago, Nevadans have opposed 
this ill-advised project for many, many reasons. I only hope 
that someday Nevadans will have an opportunity to see and 
celebrate the demise of this disastrous proposal, and only then 
will Nevadans no longer need to worry about living next to the 
most dangerous substance on Earth.
    Unfortunately, Mr. Chairman, today is not that day.
    I do agree with many of the panel that we must find 
solutions to the escalating nuclear waste problem in this 
country. However, simply digging a hole in the Nevada desert 
and burying the waste is not that answer.
    One only needs to look at the recent history of the Yucca 
Mountain Project to get a sense of the DOE's motivations. 
Unfortunately, it is extremely disturbing to me to see that, 
since the birth of this project, that the Department of Energy 
has consistently failed to use sound science as their guide and 
has instead been blinded by its obsession to do anything to 
rubber stamp this project in order to rush it to completion.
    While this might be OK to the bureaucrats at DOE 
headquarters 2,500 miles away, it is completely inadequate to 
the people of Nevada and throughout this country who have to 
live with the reality of this substance, the deadliest 
substance known to man, contaminating perhaps our water supply, 
traveling through our communities and along our roads and 
perhaps endangering our communities.
    Last year, under Chairman Porter's leadership, this 
committee held a hearing which shed a very revealing light on 
the recent scandal plaguing this problem; and since that time, 
it seems clear that every month a new revelation about Yucca 
Mountain is revealed that continues to disturb but should not 
surprise Nevadans.
    First, the EPA comes out with an arbitrary and grossly 
inaccurate guideline to help them push this project forward. 
Then there are accounts that Yucca Mountain Project is falling 
apart from inside and will require millions of dollars to 
repair. Next, on April 4th, DOE sent its Yucca Mountain bill to 
Congress. Since Yucca fails the test of science and cannot 
satisfy traditional safety regulations for nuclear projects, 
the bill would unabashedly do an end run around those 
obstacles, constituting DOE's last-ditch attempt to salvage a 
repository that has failed nearly every test that it has been 
put through.
    And today, Mr. Chairman, you are holding a hearing on the 
Government Accountability's Office's assessment of the 
effectiveness of DOE's quality assurance program; and this 
report, may I say, is alarming, to say the least. It reinforces 
what many have been saying for years, that the Yucca Mountain 
Project is fatally flawed and should be stopped immediately, 
without delay.
    Chairman Porter, I applaud your ongoing efforts to try to 
investigate the alleged falsifications of scientific data on 
the Yucca Mountain Project through the House Government Reform 
Committee; and I look forward to hearing today from the 
witnesses who will try to explain the need to continue forward 
with this project despite the mounting evidence that points to 
the need to look for an alternative.
    I want to thank you again for the opportunity and inviting 
me to join you today, and I look forward to the opportunity as 
well to hear from our witnesses.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Congressman.
    I will note for the record that Members will be coming and 
going today, and we have also received or will be receiving 
statements from other members of the Nevada delegation who are 
also invited to be on the dais today but because of schedules 
weren't able to be here but will be submitting their own 
documents.
    At this point, I would like to ask that the witnesses today 
recognize that there may be additional questions that will be 
addressed later from members of the committee, and I would like 
to ask that you all stand at this point, and we will do the 
customary swearing in.
    [Witnesses sworn.]
    Mr. Porter. Let the record reflect the witnesses answered 
in the affirmative.
    Please be seated. Thank you.
    Our first witness today will be Mr. Jim Wells, who is 
Director of Natural Resources and Environment, U.S. Government 
Accountability Office; followed by Gregory Friedman, Inspector 
General, U.S. Department of Energy; Margaret Federline--did I 
pronounce that correctly--Deputy Director, Office of Nuclear 
Material Safety and Safeguards, the U.S. Nuclear Regulatory 
Commission; and Mr. Paul Golan, Acting Director, Office of 
Civilian Radioactive Waste Management, U.S. Department of 
Energy.
    So, first, Mr. Wells, we appreciate your testimony. Keep it 
approximately 5 minutes.

   STATEMENTS OF JIM WELLS, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; GREGORY 
    FRIEDMAN, INSPECTOR GENERAL, U.S. DEPARTMENT OF ENERGY; 
MARGARET FEDERLINE, DEPUTY DIRECTOR, OFFICE OF NUCLEAR MATERIAL 
SAFETY AND SAFEGUARDS, U.S. NUCLEAR REGULATORY COMMISSION; AND 
  PAUL GOLAN, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE 
          WASTE MANAGEMENT, U.S. DEPARTMENT OF ENERGY

                     STATEMENT OF JIM WELLS

    Mr. Wells. Thank you, Mr. Chairman.
    Thank you for the opportunity to discuss our work 
concerning the quality assurance challenges facing DOE as it 
tries to obtain a license to construct a geological repository 
at the Yucca Mountain site. Our most recent March 2006, report, 
Quality Assurance Needs Attention, and in our earlier 2004 
report, Persistent Quality Assurance Problems, continued the 
description of a troubled QA program.
    As a Nation, we are 25 years into a process to deal with 
geological burial of 50,000 metric tons and growing nuclear 
waste. Most in the room today are well aware of the twists and 
turns this program has taken over the years.
    Today, after continuing delays, DOE still must prepare a 
license request for approval from the NRC to begin 
construction. NRC requires that a quality program--quality 
assurance program must exist to ensure that the work and the 
technical information is supporting a license that is deemed 
accurate and defensible. DOE is not there yet.
    While we were doing our most recent audit, DOE announced 
the ``new path forward'' initiative, but it has not yet 
established a new date when they will be ready to ask for a 
license.
    I want to start and finish my statement today saying that 
resolving the QA problem we and others have found is essential 
to proceeding with construction.
    In 2004, we reported recurring QA problems could delay the 
licensing of the repository. 2006, 2 years later, we still 
don't have the request for a license.
    DOE tried to make changes to improve. In 2005, DOE reported 
that it had discovered a series of e-mail messages written in 
the late 1990's by USGS Geological Survey employees that 
appeared to imply that workers had falsified records for 
scientific work. Several of these messages appear to show 
disdain for the Project's quality assurance program and its 
requirements; and in December 2005 and again in February 2006, 
some project work has been stopped due to continuing QA 
problems.
    Our most recent report once again found problems.
    Over the years, NRC, the DOE IG and DOE's own management 
team were finding inadequate QA procedures, ineffective fixes 
to earlier problems, and continuing weaknesses in data, 
software, and modeling information.
    Mr. Chairman, of particular concern to us was DOE's 
reliance on costly and time-consuming rework to resolve 
lingering quality assurance concerns, as opposed to building 
quality assurance in at the beginning.
    Second, we found significant problems with the management 
tools, as you have mentioned in your opening statement, that 
DOE was using to target, to track, to report, and document 
successful fixes to past QA problems.
    I guess the best way to describe by findings was that, due 
to the numerous technical design flaws, what management tools 
DOE management was using to fix the problems was not adequately 
describing the problem or sufficiently drawing management's 
attention to the best solutions.
    In our report, we recommended that DOE needed to strengthen 
its management tools, and we offered suggestions as to ways to 
improve. DOE agreed with our recommendations.
    Third, DOE's aggressive new path forward faces substantial 
QA challenges going forward. They are not out of the woods yet.
    The e-mails suggesting the possible falsification of 
quality assurance records had resulted in extensive, again, 
rework efforts to restore confidence in scientific documents. 
DOE is conducting a review of 14 million additional e-mails to 
determine whether they raise additional QA problems. I suspect 
we will hear today about where the status of that is.
    DOE also has two stop-work orders in place as they continue 
to resolve new-found QA problems.
    As they announce new organizational changes, including 
bringing in new players to fix the problems, they will face 
potential for further confusion of their accountability as 
roles and responsibilities change. This will impose over an 
organization that is experiencing high managerial turnover and 
existing vacancies in various senior management positions. For 
example, 9 of the 17 key management positions at the Project 
level have turned over since 2001, and 3 different directors 
have served in Washington recently.
    In conclusion, Mr. Chairman and members, I would like to 
say that, clearly, DOE was assigned a task with a very complex 
and changing requirement to build something which has never 
been done before.
    Our GAO audit team continually met with and discussed the 
Project with some really smart DOE people, very talented people 
that are doing many things right. Our audits, however, we do 
have--this is where we find things that can be done better. We 
have made recommendations to DOE which they agree with. It is 
too early for us to conclude today whether its new path forward 
effort will resolve these tremendous challenges.
    I will end with what I started with: Resolving the QA 
problems we and others have found is essential to proceeding 
with this construction.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Wells. Again, we appreciate your 
being here.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Porter. Mr. Friedman, Inspector General, U.S. 
Department of Energy, welcome.

                 STATEMENT OF GREGORY FRIEDMAN

    Mr. Friedman. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today at your request to testify on matters related 
to quality assurance procedures and general management at the 
U.S. Department of Energy's Yucca Mountain Project.
    My office has conducted a number of reviews involving Yucca 
Mountain Project over the last several years. In today's 
testimony, I would like to highlight three recent reviews 
relating to quality assurance and general project management.
    First, my office, in coordination with the Department of 
Interior Office of Inspector General and the Federal Bureau of 
Investigation, initiated a criminal investigation focusing on 
potential falsification of research data and quality assurance 
requirements pertaining to computer modeling of net water 
infiltration at the proposed Yucca Mountain repository.
    As part of the investigation, we conducted numerous 
interviews of current and former employees of the Department of 
Energy, Yucca Mountain Project contractors, and employees of 
the U.S. Geological Survey. We analyzed about 150,000 e-mails 
directly and also obtained and examined numerous documents that 
included various reports on internal and external reviews of 
the Yucca Mountain Project operations. The objective of the 
investigation was to identify the facts and circumstances 
surrounding a series of e-mails that discussed the potential 
fabrication of data and compromise of quality assurance 
requirements.
    The extensive factual record developed was provided to the 
U.S. Attorney's Office in December 2005 at the conclusion of 
our field work.
    Just last evening, on April 24th, the U.S. Attorney's 
Office notified the OIG they had declined to pursue criminal 
prosecution in this matter. Among the reasons given by the 
Department of Justice were that they could not show intent and 
the action did not rise to the level of criminality.
    My written testimony, Mr. Chairman, does not include this 
information because it was submitted prior to our being 
notified by the Department of Justice; and my verbal testimony 
will have to do in this regard.
    During the investigation, we observed internal control 
deficiencies that warrant the attention of Department of Energy 
program managers. A memorandum highlighting these issues has 
been issued to the Secretary of Energy. We understand the 
Department of Interior's Office of Inspector General was 
planning to issue a separate report to the Department of 
Interior Management regarding issues specific to the geological 
survey.
    With respect to the Department of Energy, we identified the 
following internal control deficiencies: First, a nearly 6-year 
delay in surfacing and appropriately dealing with the 
controversial e-mails, for which, frankly, we could find no 
satisfactory explanation; second, the compromise of scientific 
notebook requirements for an analysis and model report, an AMR 
report, on simulation of net infiltration for modern potential 
future climates; and, three, a failure to properly maintain 
critical control files relating to that same AMR in accordance 
with data management system requirements established by the 
project managers.
    Although criminal prosecution will not be pursued based on 
the Department of Justice's declaration, observers have pointed 
out that the authors of the e-mails demonstrated irresponsible 
and reckless behavior and their actions have had the effect of 
undermining public confidence in the quality of science 
associated with the Yucca Mountain Project. This incident has 
forced the Department of Energy to spend millions in actions to 
address the quality assurance issues raised in the e-mails.
    The second matter I would like to address is an IG report 
issued in November 2005.
    Nuclear Regulatory Commission procedures for granting a 
license for the proposed Yucca Mountain nuclear waste 
repository require the Department publicly disclose on a Web 
site all documents, including e-mails, relative to the 
licensing process. In 2004, the Office of Civilian Radioactive 
Waste Management took action to review approximately 10 million 
archived e-mails associated with Yucca Mountain for relevancy 
to the licensing process.
    Internal to the Yucca Mountain Project, an administrative 
procedure required that throughout the course of all project 
activities--and I stress all project activities--there be a 
conscious effort to identify and resolve any and all conditions 
adverse to quality. As a result of our inspection, we concluded 
that the Department's review of the archived e-mails had not 
been structured so as to ensure the quality assurance issues 
were identified and addressed.
    We were informed that, as a result of our report, Waste 
Management is developing a corrective action plan to expand its 
quality-assurance-related search effort to include a more 
comprehensive review of the approximately 10 million or more 
archived e-mails.
    Finally, Mr. Chairman, I would like to discuss an IG report 
issued in December 2005. We found the Department had paid 
approximately $4 million in incentive fees to Bechtel SAIC, 
Yucca Mountain's prime contractor, even though the firm did not 
meet contract performance expectations. We concluded that Waste 
Management had not established an adequate process to monitor 
and evaluate the contractor's work products and services.
    As a result of management weaknesses, the contractor was 
rewarded for projects and services integral to the Yucca 
Mountain project for services that did not meet the 
requirements of the contract, including matters related to 
ensuring project quality. As a result of our report, Waste 
Management agreed to establish a performance incentive plan 
with clearly defined standards and document its rationale for 
fee payments.
    The efforts to determine whether Yucca Mountain is a 
suitable site for disposal of the Nation's high-level nuclear 
waste and spent nuclear fuel is a complex challenge. Of 
paramount concern is that this evaluation be objective and that 
it be based on sound and unbiased scientific analysis 
consistent with the highest possible quality assurance 
standards. Thus, it is vital the Department intensify its 
efforts in the quality assurance arena.
    We are committed to performing independent reviews to 
assist in this effort. In fact, in late 2005, at the request of 
the Acting Director of the Office of Civilian Radioactive Waste 
Management, Mr. Golan, we initiated a review of the 
completeness and effectiveness of the corrective action program 
to address quality assurance problems. This review is in 
process.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement. I would be pleased to answer any 
questions that you might have.
    Mr. Porter. Thank you very much, Mr. Friedman. I appreciate 
all your efforts and your staff.
    [The prepared statement of Mr. Friedman follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Porter. Next, we have Margaret Federline, Deputy 
Director of the Office of Nuclear Material Safety and 
Safeguards, U.S. Nuclear Regulatory Commission.
    Welcome, Margaret. Thank you.

                STATEMENT OF MARGARET FEDERLINE

    Ms. Federline. Mr. Chairman and members of the 
subcommittee, it is a privilege to appear before you today to 
share with you the Nuclear Regulatory Commission's perspective 
on the role of quality assurance in the Department of Energy's 
Yucca Mountain program.
    Since I will be presenting an abbreviated version of my 
testimony, I would ask that my entire written statement be made 
part of the hearing record. Thank you very much.
    The Nuclear Waste Policy Act assigns NRC the role of 
regulator for the proposed high-level waste repository. In 
addition to reviewing DOE's license application, the NRC 
observes and comments on DOE's quality assurance program as 
part of NRC's prelicensing activity. Implementation of an 
effective QA program during the prelicensing, licensing and 
operational periods will ensure that repository activities are 
consistent with safety requirements.
    The purpose of our observing DOE activities during the 
prelicense application phase is to verify that DOE clearly 
understands our requirements. We review the implementation and 
effectiveness of DOE's quality assurance program by performing 
independent reviews, observing audits and surveillances 
performed by DOE and its contractors and monitoring significant 
quality effecting activities.
    While no regulatory conclusions are made during our 
reviews, we do provide feedback to DOE for consideration.
    For example, we performed an independent review of 
important DOE model reports. Through independent technical 
work, NRC had identified that the information in these model 
reports was significant to a safety demonstration. During the 
review, NRC staff identified concerns with some aspects of the 
technical basis and information in the model reports. Also, NRC 
staff identified concerns with the effectiveness of some of 
DOE's corrective actions.
    NRC staff members also observe DOE audits of QA program 
implementation to determine their effectiveness in identifying 
issues that pertain to safety in their design for the proposed 
repository. Of the audits that we have observed, we have noted 
that the auditors are generally qualified, trained and 
independent of the areas being audited, and most audits were 
adequate in assessing the activities being audited.
    For example, NRC observers of a DOE audit of design 
engineering products related to the fuel handling and canister 
handling facilities determined that the audit was effective in 
assessing the adequacy, implementation and effectiveness of 
technical products and processes.
    On the other hand, NRC staff has identified other concerns 
during these observations. One such observation noted that NRC 
did not agree with the DOE auditors' conclusion that Lawrence 
Livermore National Laboratories effectively implemented certain 
aspects related to control of measurement and test equipment 
and corrective action. As a result of our observations, DOE is 
performing additional reviews in this area.
    During the current year, NRC staff reviews have noted that 
DOE has made significant changes to its corrective action and 
trending process as a result of Yucca Mountain Project internal 
audit findings as well as the result of NRC comments.
    NRC staff will continue to observe DOE activities in areas 
of science as well as design work to ensure that DOE's QA 
program is appropriately applied in developing the safety case 
for licensing.
    Some current QA program implementation issues are of 
concern to us. These issues include those identified at the 
U.S. Geologic Survey, DOE's design controls and requirements 
flow-down and the calibration of test equipment at Lawrence 
Livermore Labs. These issues concern us because they raise 
questions about the systematic and effective implementation of 
DOE's QA program, which is an integral part of a high-quality 
license application. NRC staff will continue to review DOE's 
technical approaches, findings and conclusions regarding QA 
issues. We will closely observe DOE's corrective actions and 
will continue to bring any issues to DOE's attention.
    At the most recent quarterly management meeting, QA program 
implementation issues were discussed, and DOE presented its 
plans for resolving the issues.
    Our recent observations of Yucca Mountain Project 
activities have noted that DOE's plans for addressing current 
QA program issues with design control and requirements flow-
down appear to be directed at the right problems and to be 
using good approaches for correcting the root causes.
    Recent Yucca Mountain Project staff additions have brought 
in management personnel with previous experience in 
implementing quality assurance programs for NRC-regulated 
activities.
    In March 2006, as we have heard, the Government 
Accountability Office issued its report on Yucca Mountain 
quality assurance. NRC staff had reviewed the GAO report and 
found that these conclusions are consistent with what we have 
observed, some of which I have discussed today.
    In conclusion, the NRC staff has noticed improvements in 
effectiveness of DOE's quality assurance program 
implementation. We will, however, continue to fulfill our 
responsibilities to ensure the adequate protection of public 
health and safety and the environment.
    Thank you very much.
    Mr. Porter. Thank you. Appreciate your testimony.
    [The prepared statement of Ms. Federline follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Porter. Next, Mr. Paul Golan, Acting Director, Office 
of Civilian Radioactive Waste Management, U.S. DOE.
    Welcome.

                    STATEMENT OF PAUL GOLAN

    Mr. Golan. Thank you Mr. Chairman, members of the 
subcommittee.
    My name is Paul Golan, and I am Acting Director of the 
Office of Civilian Radioactive Waste Management since May 2005. 
Previously, I served in the Department of Energy's environment 
cleanup program; and prior to that I had the privilege of 
serving in the U.S. Navy Nuclear Propulsion Program.
    In order for my testimony to be more productive today, I 
would like to provide the subcommittee my perspective of 
quality.
    When most people speak of QA, they envision an organization 
of auditors armed with checklists and pencil stubs counting 
beans and making sure all the boxes are checked and putting an 
``inspected by'' label on the box with your product. That is 
not quality assurance. Rather, that is an audit or assessment. 
While a necessary component of a QA program, by all means not 
the most important aspect.
    When I speak of quality today, quality assurance, I am 
referring to an organizational culture, a culture that is a 
collection of the organization's standards, actions, behaviors, 
and ultimately its performance. People and organizations that 
set high standards act professionally, behave responsibly and 
perform in accordance with the requirements, embody good 
quality.
    These characteristics are critical to an organization's 
ability to function effectively in a regulated environment.
    Quality is an organizational trait earned by an 
organization's living up to its standards and is demonstrated 
by its performance.
    Over the years, the Yucca Mountain QA program has been 
reviewed by many of the organizations at the table today. The 
set of documents here is a compilation of the reports by these 
organizations, some of which go back to the 1980's. They 
addressed deficiencies in the Yucca Mountain QA program and 
found that, despite the development of corrective action plans, 
deficiencies have not been completely corrected and the same 
deficiencies tend to reoccur.
    Again, these findings were consistent with the findings of 
the latest review by the GAO in March 2006. In nearly all these 
reviews, the Department concurred with the findings and 
instituted corrective actions to address these deficiencies. I 
have read the reports and agree with the findings.
    The QA program and, more importantly, the culture of this 
organization needs to improve. In order for us to improve, 
there are two components of this program and this culture that 
I would like to focus on. The first is focus, and the second is 
accountability.
    With respect to the first component, we need to consider 
whether we are focusing on the symptoms or we are addressing 
the root cause. It is like taking an aspirin for a headache. If 
the headache keeps on coming back, then perhaps, maybe, the 
aspirin wasn't the right medicine. We need to focus on the true 
cause of the issue and ensure that the effectiveness of our 
corrective actions can be objectively measured through 
improvements in performance.
    The second aspect is accountability. Some call 
accountability follow through. Accountability is critical for 
any organization or any program to be successful.
    Employees are trained on the requirements and understand 
the requirements. Managers and leaders need to mentor their 
staff and make sure these requirements are met. Then if 
employees or managers are either unwilling or unable to meet 
those requirements, they need to be held accountable for their 
actions. On one level, that may call for additional training. 
In more egregious cases, it may also mean consequences ranging 
from counseling to letters of reprimand, from potentially being 
removed from having the privilege to work on this project 
depending on the severity of the situation.
    At the Yucca Mountain Project, it is important to recognize 
that the vast majority of the nearly 2,000 people who work on 
the Project--most of them citizens of Nevada--have high 
standards, behave professionally and perform good work, day in 
and day out. At the same time, though, we need to recognize 
that the actions of a few or the actions of the one can 
dramatically undermine the confidence and damage the reputation 
of hundreds of credible, honest and trustworthy people who have 
worked very long and hard on this project. Managers and leaders 
of this organization need to monitor their ongoing activities 
and address quality issues real-time. They need to know what is 
going on in their work spaces and correct issues on the spot.
    In order to be effective, managers and leaders need to be 
visible, they need to be engaged, and they need to actively 
listen. Managers and leaders need to communicate issues up the 
chain of command quickly and effectively as well as be 
responsible for developing solutions.
    Managers and leaders need to do this today, and they need 
to do it again tomorrow and the day after that until it becomes 
habit. Habits, good or bad, help define who we are as 
individuals and who we are as organizations. Habits over time 
become our culture.
    If I may take a couple of minutes to talk briefly on some 
of the work stoppages that my office has ordered, I would 
appreciate 2 more minutes.
    Mr. Porter. No problem.
    Mr. Golan. First, I would like to talk about the USGS work 
performed by the Department, which were discussed in our 
technical report issued in February 2006.
    Our independent technical evaluation noninfiltration 
estimates developed by the U.S. Geologic Survey were found to 
be consistent with the conclusions that were completed by 
scientists independent of this project under future predicted 
climate conditions. Nevertheless, our quality assurance 
requirements were not met; and, consequently, we are expending 
time and resources to replace that work.
    We have directed that Sandia National Laboratories 
redevelop computer codes that will generate new infiltration 
rate estimates in accordance with our QA requirements and then 
replace those infiltration rate estimates after the work has 
been independently reviewed.
    I take full accountability for that decision, sir.
    In other matters, more recently, we suspended the authority 
of our contractor to approve quality documents in the area of 
facility design because the flow-down of design requirement was 
not documented in accordance with our procedures. While our QA 
procedures did not require us to suspend work in this case, we 
nonetheless did to address any potential issues before moving 
forward with our new design to support the clean canistered 
approach to waste handling operations.
    In January of this year, we issued a stop-work order at the 
site when a cable being laid in the exploratory tunnel did not 
meet established code requirements. Workers at the site brought 
this to our attention, and we appreciate and applaud their 
actions. We have taken steps to address this issue.
    In April, we issued a stop-work order for work associated 
with the use of certain chemical standards because we found 
procedures used to procure those standards did not meet our 
specifications. We are taking steps to address this issue.
    Additionally, we are continuing our investigation on the 
calibration and use of humidity and temperature probes by one 
of our national laboratories.
    In all these cases, after we understand the facts, we will 
in a very deliberate way take actions necessary to ensure the 
quality of our work and hold managers and employees accountable 
for their actions as well as recognize those individuals who 
identified issues and took the right action.
    We are taking aggressive actions and measures to find 
quality assurance issues as well as take actions to address 
them. However, as everyone on the panel has pointed out today, 
these corrective actions in my mind amount to rework and a 
defect. While we will do what is necessary to ensure our work 
products meet our quality assurance requirements, I have a 
management goal where we do all our work right the first time, 
every time.
    Let me digress for a moment. I do not want to give the 
impression that a good QA program or good QA is defined by the 
absence of issues. We will find those situations that do not 
meet our requirements that will necessitate action. We believe, 
however, that with a good QA program we will find these 
situations early, within hours or days, and correct issues 
while they are small. Early detection and prompt action is our 
goal.
    Secretary Bodman a year ago asked this team to focus on 
working to make this project safer, simpler and more reliable 
and to improve the quality and culture of this organization as 
our No. 1 priority. We have worked diligently on this task, and 
the Department will seek to demonstrate good quality, good 
science, and good processes in our license application and 
across our entire organization through our performance.
    Thank you very much.
    Mr. Porter. Thank you for your testimony.
    [The prepared statement of Mr. Golan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Porter. At this time, I would like to ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record, and 
answers to written questions provided by the witnesses also be 
included in the record.
    Without objection, it is so ordered.
    I would also like to ask unanimous consent that all 
exhibits, documents and other materials referred to by Members 
and witnesses may be included in the hearing record and that 
all Members be permitted to revise and extend remarks. Without 
objection.
    Let the record reflect a quorum is now present. Thank you.
    I would like to now open it up for some questions for the 
panel. I would like to really begin myself and, since we are 
two Members--Congressmen--will be informal with questions. I 
would like to begin.
    Mr. Golan, I wear two hats, one as a Member of Congress 
from Nevada, one as chairman of this subcommittee. And 
whether--of course, my position is very clear on the Project, 
because I represent the State of Nevada and am very concerned 
about Yucca Mountain and its impact on our community and State. 
But let me put on my hat for one moment as chairman.
    It appears to me that no one is in charge of the Yucca 
Mountain Project. And I appreciate that you have been there 
about a year. But whether this is a design of a space shuttle 
or whether this is a design of an airplane, I personally would 
be afraid to fly it. And I know that a lot of DOE folks mean 
well and are working hard and a lot of great employees that 
mean well, but I am not sure any of them are responsible or 
taking full responsibility. And I am not sure whether you would 
let one of your children fly on an airplane that DOE is 
building right now, referring to Yucca Mountain.
    Time and time again, there has been questions of the safety 
and quality assurance. And, again, whether it is Wall Street or 
the private sector, with this much turnover in management, Wall 
Street would shut you down, the private sector or local 
government would shut you down, with 9 of 17 key management 
positions gone, 3 of the directors gone.
    Time and time again, testimony by experts that are saying 
that there are serious, serious safety problems--forget the 
word quality assurance. This is safety about men, women, and 
children around this country and in the State of Nevada.
    But my biggest concern, whether I was for or against the 
Project--and you know I am opposed to the Project--I would not 
trust my child to fly on your airplane. I would not trust my 
child's safety to be in your hands, because I don't believe 
anybody is in charge.
    My staff has done hours and hours of testimony with 
employees. I have spent time talking to employees, again, find 
hard-working individuals, but I have yet to find anyone that 
says that this project to date will be safe, other than 
management personnel. They are all very concerned. Employees 
are concerned. There's a morale problem. They are concerned 
about the turnover in management. They are concerned about the 
change in design of your airplane every other week. So I, too, 
share that concern.
    I know today is about some questions, but I will tell you 
that I am very, very troubled as a Member of this Congress. And 
I know other Members of Congress, all they want to do is find--
not all but many just want to find a place for the storage of 
nuclear waste. And out of sight out of mind. But for the folks 
living in Nevada, it is not out of sight, out of mind; and I am 
very concerned.
    Again, we have document after document after document 
stating that there is serious problems from management of the 
contract, with your subcontractors, there has been safety of 
employees because of different things through the years. I 
state that I question if anybody is in charge.
    Mr. Golan. Well, sir, I am in charge; and I take 
responsibility for this operation. Over the last year, I have 
spent a lot of time on various aspects of the Project, from the 
total systems performance assessment [TSPA], through the 
seismic analysis, through the design analysis of the 
facilities, all the way down to the layout of the facility at 
the site.
    Secretary Bodman asked--he gave us direction a year ago, 
very clear direction. He said, make it simpler and make it 
safer; and over the last year, we focused on that, sir.
    We talked about the redesign of the surface facilities. 
That is the first time we have done the redesign of the surface 
facilities since the site recommendation was basically made. 
And we took the approach with the clean canistered approach to 
make it safer, simpler and more reliable. Rather than handling 
bare spent fuel at the site, we are going to predominantly 
handle canister fuel. That is safer for the workers. That is 
safer for the State. That is simpler and more reliable.
    Second, we designated Sandia National Laboratory to 
coordinate all our scientific work. We are taking advantage of 
truly one of the gems of the national laboratory system in 
Sandia, and Sandia earned the right as our lead laboratory 
because of the good work they did at the waste isolation pilot 
plant. We want to establish a trust but verify culture.
    A couple of weeks back, we designated the Oak Ridge 
Institute for Science and Education [ORISE], as our independent 
review of our technical work. When we issued our technical 
report on the USGS infiltration work, we had that work 
independently verified, but we had to put together a team of 
individuals from the University of Arizona, Colorado School of 
Mines and the Department of Agriculture. Now we have access to 
nearly 100 universities to do the independent work.
    We have established our safety conscious work environment 
across the entire organization. Before, it was just set up in 
the Yucca Mountain Project office out in Las Vegas. I have the 
employee concerns manager and the director of quality assurance 
reporting to my office. We recently reorganized our staff to 
focus on line management accountability; and we have project 
offices, from chief scientist to chief engineer, regulatory 
authority, all assigned line management responsibilities, 
reporting to the director to clarify roles and 
responsibilities.
    These are just a few actions that we have taken to focus on 
making it safer, simpler, and more reliable. As I said, I have 
looked at aspects of this project from the infiltration down to 
the transport of the water as it leaves the waste package here. 
I think our science is sound, our engineering is sound and 
conservative, and the path forward that we intend to put this 
project on will make it safer, simpler and more reliable than 
it was before.
    Mr. Porter. Do you agree with the Secretary's comments that 
our Yucca Mountain Project is broken?
    Mr. Golan. I want to put that into context. The Yucca 
Mountain was supposed to start accepting waste in 1998. We are 
8 years beyond that schedule. Clearly, there were things not 
going right for us not to meet that deadline. So I can 
understand the Secretary's frustration, and I can understand 
that classification of the Project as being broken.
    Mr. Porter. Thank you.
    Congressman Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Golan, I think you can agree with GAO's study, can you 
not, that there has been a serious quality control problem over 
years. Do you agree with that?
    Mr. Golan. I agree. I have read the reports by the general 
of the Government Accountability Office over the years; and I 
agree with the conclusions of their reports, sir.
    Mr. Gibbons. And, as you heard today, in their testimony it 
does tell of a long history of quality assurance problems. You 
heard their testimony as they sat here today.
    Mr. Golan. I did. But the reports also include, sir, the 
recognition over the years that the quality assurance program 
has been improving since the 1980's.
    Mr. Gibbons. I will buy that. You say you are making 
improvements; you are making steps forward.
    Let me ask you a question, because you just testified that 
you want to make it safer. The legislative bill that you are 
supporting, that you are pushing, that is coming before this 
Congress eliminates any applicability of our Nation's hazardous 
waste disposable laws, preempts State and local air quality 
regulations and usurps a State's traditional authority to 
administer the waters within its regions. How do you believe 
that makes it safer?
    Mr. Golan. Sir, if I may, in regards to the Resource 
Conservation and Recovery Act provision, the requirements for 
shallow land disposal of hazardous waste compared to the 
disposal requirements of the spent nuclear fuel and high-level 
waste proposed for Yucca Mountain, Yucca Mountain has orders of 
magnitude, more safeguards and more protection than what you 
would find in a standard hazardous waste disposal cell.
    Mr. Gibbons. So you're saying that DOE's high-level waste 
management protection would preempt and actually be on an order 
of magnitude greater maybe than the State laws that have air 
and water quality assurances in them?
    Mr. Golan. Sir, I am talking about the Resource 
Conservation and Recovery Act provision----
    Mr. Gibbons. I am talking about the bill that is before 
Congress today that your organization--your Department 
supports.
    Mr. Golan. I would like to go through the other two aspects 
of the bill that you mentioned, sir.
    Mr. Gibbons. I just want your statement. Do you believe 
that DOE, by supporting this piece of legislation, will make 
Yucca Mountain safer?
    Mr. Golan. If I might just add the air provision, sir----
    Mr. Gibbons. It is a yes or no question.
    Mr. Golan. I would like just to go through the three 
provisions that you mentioned.
    Mr. Gibbons. You can go through the provisions. Just give 
me a yes or no answer to it.
    Mr. Golan. With regard to the air provision, we still are 
required to get air permits; and the environmental protection 
agency would be the issues of those air permits.
    Mr. Gibbons. But this legislation is going to take State 
standards out of it.
    Mr. Golan. It puts authority to issue air permits with the 
Environmental Protection Agency, sir.
    Mr. Gibbons. Yes, the government, Federal Government.
    Mr. Golan. Yes, sir.
    And, last, with regard to water, the only thing the 
Department is asking for is to be treated by like any other 
entity. Most of the water we are using is for worker safety. It 
is for dust suppression. It gets very dry and dusty. Most of 
the water is being used for dust suppression.
    Over the course of 5 years we intend to use the equivalent 
of 4 days worth of water that is used in Las Vegas, so over the 
course of 5 years we are just asking to be treated as any other 
person or any other entity asking for a State water permit. We 
would not be using the water that Las Vegas typically uses the 
aquifers for, and all we are asking for is to be treated 
equally under that provision.
    Mr. Gibbons. Well, that doesn't require a law change.
    Mr. Golan. We find it very difficult, sir, to get water 
permits issued for simple things such as dust suppression at 
the site.
    Mr. Gibbons. Is that because you don't have access or you 
don't have title to the water?
    Mr. Golan. It is because we have a difficult time getting 
permits from the State and to get access to the water, sir.
    Mr. Gibbons. There are courts to deal with that if the 
State doesn't give you a permit.
    But let me ask you a question, because you are the expert 
and you are the person sitting here talking to me about quality 
assurance. I am a scientist. I come out of the mining industry. 
Let me ask you a question.
    Do you feel that the quality assurance standards for the 
rock bolts that are in the mine that are applied today meet the 
quality assurance for a long-term assessment for those rock 
bolts that are in there? I mean----
    Mr. Golan. Are we talking about the rocks bolts that are 
currently installed, sir?
    Mr. Gibbons. Yes.
    Mr. Golan. For the--when--if we get construction 
authorization from the NRC, our intent is to change the nature 
of the support structures inside the Yucca Mountain facility.
    Mr. Gibbons. Why do you need to do that?
    Mr. Golan. Because we have a provision that has--the waste 
has to be retrievable for a period of time from 50 to up to 300 
years after emplacement. So we are going to change the nature 
of the ground support.
    Mr. Gibbons. In other words, the rock bolt quality 
assurance today doesn't meet those standards?
    Mr. Golan. Again, this is an exploratory tunnel, sir; and 
when we go into actual mining excavation and preparation for 
the tunnel for actual waste disposal, there will be a different 
set of standards and a different set of requirements that will 
be implemented.
    Mr. Gibbons. But the standards today don't meet what your 
expectations are, do they?
    Mr. Golan. We don't intend to dispose of the waste in the 
exploratory tunnels.
    Mr. Gibbons. You have a wonderful way of articulating a 
non-answer to my question.
    Mr. Golan. I just said we are going to use a different set 
of standards when we actually----
    Mr. Gibbons. We will move on.
    You anticipate removing about 147,000 acres, withdrawing 
that land----
    Mr. Golan. Yes, sir.
    Mr. Gibbons [continuing]. In the State of Nevada. Where is 
that land located today?
    Mr. Golan. It is located around the Yucca Mountain site; 
and I can provide a map for the record, sir.
    Mr. Gibbons. Would you please?
    Mr. Golan. Yes, sir.
    Mr. Gibbons. Is it within the Air Force training area?
    Mr. Golan. Part of the land is within Nellis Air Force 
Base, yes, sir.
    Mr. Gibbons. How much of it?
    Mr. Golan. About a quarter, sir.
    Mr. Gibbons. You anticipate restricting overflight and 
training from Nellis Air Force Base in that area.
    Mr. Golan. We anticipate there will be some flight 
restrictions that may be required during the waste in place and 
the waste handling operations.
    Mr. Gibbons. So about 30,000 acres is going to be removed 
from the Air Force training capability, a little more?
    Mr. Golan. About, a little more, somewhere around that, 
yes, sir.
    Mr. Gibbons. Somewhere around 37. Nellis is one of the 
principal pilot training areas that we have in this country, 
one of the few remaining where those of us who have trained 
there are able to get the skills and the ability to defend this 
country; and because of your now urgency of withdrawing 147,000 
acres, taking part of that away from the Air Force, we are 
going to restrict those pilots from being able to get that 
training, to be able to protect this country, to be able to 
learn themselves how to better do their jobs. How do you 
justify national security concerns?
    Mr. Golan. Because, sir, this project has been approved by 
the President and both Houses of Congress.
    Mr. Gibbons. There is a lot of things we approved in this 
Congress, a lot of things that are signed by the President of 
United States and a lot of things that don't jeopardize the 
national security of this country.
    Your removal of that land, your removal of restricting that 
area, in my view, takes away a measurable part of the training 
area that these pilots train on; and, in addition to that, you 
are going to restrict them because of the railroad access, the 
highway accesses that you are going to have to build in there. 
So it is more than just that small fragment. You are going to 
set aside a large part of true training area that is the PhD 
for our men and women who fly these airplanes and defend this 
country because you want a larger and restricted area for this 
waste management area.
    You know, I am not opposed to nuclear energy. I am opposed 
to the poorly thought-out provision of Yucca Mountain.
    Mr. Golan. Sir, I am a member of the U.S. Armed Forces; and 
I appreciate your concern. But when the site recommendation was 
approved by Congress, it was always the intent to remove the 
147,000 acres permanently as part----
    Mr. Gibbons. Whose intent? I have been here for 10 years.
    Mr. Gulan. That was--in order for us to receive a 
construction authorization from the Nuclear Regulatory 
Commission require permanent land withdrawal.
    Mr. Gibbons. Congress hasn't said we are going to 
permanently withdraw 147,000----
    Mr. Gulan. No, that's in front of Congress to decide, sir.
    Mr. Gibbons. Exactly. It's your decision to bring it before 
us today.
    We'll have another round, Mr. Chairman. I'm sorry to keep 
dominating the questions here.
    Mr. Porter. Thank you, Congressman.
    Question. Margaret, explain the process of the licensing 
application. Once it's provided to you, then your team 
investigates all the information of the provider? How does that 
work?
    Ms. Federline. Yes, sir. Once the license application is 
submitted to the NRC we have a 90-day acceptance period where 
we will conduct an acceptance review before we decide if it 
will be docketed. At that point all the information needs to be 
complete. Once the application is docketed, we will conduct a 
detailed rigorous independent review based on our staff's 
independent knowledge of Yucca Mountain. Once that is complete, 
we will develop a safety evaluation report and it will go to 
the licensing board for decision.
    Mr. Porter. How do you do that in 90 days?
    Ms. Federline. We have established a prelicensing--
Congress, in its wisdom, established a prelicensing 
consultation. And when I say consultation, I don't mean--it is 
a process by which we interact with DOE so that we can identify 
issues which would be essential to address to ensure a complete 
license application. We have referred to these as key technical 
issues, and we've identified over 290 of these issues which we 
believe would be important to address in order to have adequate 
information to conduct a licensing review.
    Mr. Porter. So in other words, you're periodically doing 
audits of your own and working with DOE and giving advice, 
although they don't have to follow it at this point. Will you 
give some direction as to some of the things they need to do 
prior to the application being submitted?
    Ms. Federline. We want to make sure that DOE understands 
our licensing requirement, so we feel it's very important for 
them in developing a license application to be clear as to what 
our licensing requirements require. And so the prelicensing 
period is for us to interact with DOE and to provide 
information and guidance similar to what we do with other--
licensing other nuclear facilities.
    Mr. Porter. So are we technically in the prelicensing stage 
at this point?
    Ms. Federline. Yes, we are.
    Mr. Porter. So the last 20 years technically has been 
prelicensing period?
    Ms. Federline. Yes, it has.
    Mr. Porter. So you have found close to 290 areas of 
concern; is that what you're saying?
    Ms. Federline. No. We identified a framework of issues 
which need to be addressed to thoroughly characterize or 
thoroughly make a safety case which answers the requirements in 
our regulations.
    Mr. Porter. So it's like questions that you have that they 
need to answer?
    Ms. Federline. Well, they're actually part of the 
demonstration of the safety case, pieces of the safety case 
that would need to be demonstrated to provide adequate 
information for us to conduct a safety review.
    Mr. Porter. So do they, then, give you preliminary 
prelicensing information that may be a test prior to the final 
application being submitted?
    Ms. Federline. No, they don't. We have interactions in 
which we identify the types of information that would be 
necessary, and we do provide guidance back to them if we feel 
that they don't understand our requirements. It's not--it would 
be--as a regulator, we could not make a predecision before the 
license application comes in. And so it's strictly intended to 
establish a framework which explains our regulations and what 
would be required.
    Mr. Porter. So throughout this process there has been 
communication between NRC and DOE which is normal in whether it 
be a nuclear reactor or Department of Energy, sort of following 
the guidelines that are consistent throughout the industry, 
correct?
    Ms. Federline. Yes. As part of design certification we do 
do precertification reviews where we do a similar type of 
thing, identify issues which need to be addressed as part of 
the design certification.
    Mr. Porter. Would the USNRC have a problem with Congress 
being able to see a draft license application from DOE 
regarding this project?
    Ms. Federline. We have not seen a draft license 
application. And when one became available to us when it was 
submitted, if DOE had not made it publically available, 
obviously we would make it publically available.
    Mr. Porter. Would you have a problem with Congress seeing 
one today if one were--or I guess let me ask this question a 
little differently. We have asked numerous times for a copy of 
a draft license application, and Department of Energy has 
consistently refused to provide it to the American public. 
Would you have a problem with us asking for a copy of that from 
the Department of Energy?
    Ms. Federline. Well, my sense is that at the time the 
license application is submitted it would contain the necessary 
and complete information. You know, we would not get involved 
between Congress and DOE in terms of what you require from DOE.
    Mr. Porter. So you wouldn't have a problem, then, with us 
requesting that information, it's between us and DOE?
    Ms. Federline. Yes.
    Mr. Porter. Thank you.
    Congressman.
    Mr. Gibbons. Let me followup with some of my questioning 
that I started before. And Director Federline, if the proposal 
that's before Congress today, the legislation which, if I may 
describe radically undercuts the traditional requirements by 
demonstrating nuclear safety by allowing unlimited changes in 
the repository with no right to a formal or informal oral 
hearing and only 18 months for environmental review, do you 
feel that is sufficient to give the American public confidence 
in the proposals as they move forward?
    Ms. Federline. I'm sorry, sir, but the Commission has not 
completed its review of the legislation; we have not completed 
development of comments.
    Mr. Gibbons. OK. Without having a formal opinion of the--
about the condition, what's your personal opinion of language 
that completely undercuts and removes the, as I said, removes 
the right to a formal or informal oral hearing and restricts it 
to 18 months for environmental review?
    Ms. Federline. With all due respect, sir, it would be 
inappropriate for me as a regulator to comment on standards 
that could be the subject of a licensing proceeding.
    Mr. Gibbons. Well, let me go back to Mr. Gulan. What's your 
opinion of having no right to a formal or informal oral hearing 
on changes to Yucca Mountain?
    Mr. Gulan. Well, first, sir, after we submit the license 
application the NRC, in accordance with the Nuclear Waste 
Policy Act, is 3 years, with the possible exception they can 
request an additional 4th year before they make a decision on 
whether to grant the Department construction authorization.
    What we are asking for in the legislative package is, in 
the second phase of that--in other words, the licensing 
amendment to receive and possess--that the NRC basically have 
12 months, with the possible extension of 6 months, to review 
that process, which I don't think is inconsistent with--because 
they'll have had 4 years to review the license before--
inconsistent with potentially how they would review an action 
in a nuclear reactor licensing arena.
    Mr. Gibbons. But in demonstrating nuclear safety there's a 
lot of people outside of DOE would have concerns, and you're 
now restricting or limiting to any formal or informal oral 
statements or position----
    Mr. Gulan. I don't believe the proposed legislation 
restricts the interactions as you're talking through here, sir.
    Mr. Gibbons. Well, the way I read it for those unlimited 
changes that DOE wants to make to Yucca Mountain, and that 
means expanding from 70,000 to whatever number you plan to 
propose in the future, that you are going to restrict the 
informal and formal oral hearings.
    Mr. Gulan. Sir, that provision in the legislative proposal 
refers to the second step in the licensing process. When we 
submit our license application to the NRC, they'll have a 
period up to 4 years to review and to grant the Department the 
license----
    Mr. Gibbons. But that's for the original 70,000 tons?
    Mr. Gulan. Yes, sir.
    Mr. Gibbons. And now I'm talking about the unlimited 
changes that you want to make. Why would it be good, why should 
we permit you to restrict informal or formal hearings and 
restrict it to 18 months, for example, if you wanted to double 
the size?
    Mr. Gulan. Sir, that provision, I'd just like to go back 
to, that's after receiving construction authorization, the 18-
month provision would be a license to receive and possess. So 
the Nuclear Regulatory Commission would still have up to 4 
years to review the license application and go through the 
hearing process, the formal hearing process in that 4-year 
period.
    Mr. Gibbons. Including the unlimited extensions and 
expansions that you want to put on Yucca Mountain after you get 
the original 70,000-ton determination?
    Mr. Gulan. Sir, again, the second part of the license 
application is the license amendment to receive and possess. 
And again, I don't have a copy of the Nuclear Waste Policy Act 
in front of me here, and I'd be glad to take that question for 
the record, but the Nuclear Waste Policy Act is clear on the 
amount of time the Regulatory Commission has to review and 
issue a judgment on construction authorization. What the 
Nuclear Waste Policy Act didn't have when it was written or 
amended was a timeframe in which the NRC would then grant the 
second part of that license for receive and possess.
    Mr. Gibbons. One of the things that troubles me about the 
bill that your organization is proposing to Congress is the 
authority to limit the exercise of jurisdictional power by 
States, tribal governments, etc., over the transportation 
requirements through their communities, through their 
reservations, along their highways and byways. Why do you want 
to take away local government's authority to review 
transportation routes?
    Mr. Gulan. Sir, I'd like to offer a briefing to your office 
and to you on the full scope of the legislative package. I 
didn't come prepared to necessarily talk in detail on that 
today; however, I do want to point to the transportation 
aspect.
    The Department has been transporting nuclear materials and 
nuclear waste over the last 50 years and it has a very good 
safety record. Our intention, with the transportation provision 
in our legislative proposal, was to extend all the work, all 
the interactions that we currently do when we ship special 
nuclear materials, when we ship low level waste and when we 
ship transuranic waste. And it was meant to extend those types 
of provisions to how we transport waste to Yucca Mountain, sir.
    Mr. Gibbons. If those provisions, as you say, have resulted 
in such a historic safety record, why do you want to exclude 
local government from having a say in either the routes, which 
roads or which train lines or over what bridges or along what 
schools or along which communities that this material travels?
    Mr. Gulan. Sir, again, I'd offer again that we would come 
and provide you a briefing on the legislative package; but 
again, the intent of that provision was basically to extend the 
type of activities and the type of provisions that we have with 
the other nuclear materials that we ship and extend that over 
into the shipment of spent nuclear fuel----
    Mr. Gibbons. Well, I understand the idea and the intent, 
but I don't understand the idea to exclude and cut out of the 
picture those people which are charged with overseeing the 
safety in some of these communities, including their first 
responders, which would have to respond if there was an 
incident or an accident, from you giving them or bringing them 
into the picture. That's what I don't understand.
    Mr. Gulan. Again, I would offer that our office could come 
and provide you a briefing on this and walk through that 
specific provision.
    Mr. Gibbons. Mr. Chairman.
    Mr. Porter. Thank you.
    Mr. Friedman, thank you for your hard work for probably 8 
or 9 months--I didn't add up the time, but I appreciate it very 
much.
    Mr. Friedman. Thank you.
    Mr. Porter. In the report that we received today you point 
out some key areas, and I appreciate you addressing them in 
your opening comments. But more specifically, you talked about 
the compromise of scientific notebook requirements. Now I'm not 
a scientist, but it's my understanding from your information 
that a scientific notebook is a standard protocol in the 
science community--I'm quoting from your statement--that 
document research approaches and outcomes, and in doing so they 
aid an individual other than the original author in reproducing 
and tracing the effort. And according to your report as of 
today, an area of concern is there was the lack of a scientific 
notebook--or at least that they weren't following the 
requirements; and you--if I read it properly, and correct me if 
I'm wrong, it's like this--it appears that this notebook 
requirement was stopped once they found problems. Is that what 
you're saying in this report?
    Mr. Friedman. Mr. Chairman, what we--on the particular--
first of all, you have, of course, correctly characterized the 
importance of lab notebooks. They're essential in the science 
field. It allows recording of information that's generated 
during current analyses and allows others to buildupon that. So 
you have characterized it correctly.
    What we found in the incident in question is the lab 
notebook had not been maintained from the outset, which 
violated good science principles, and this is a 6-year old 
problem. And it was compounded from our perspective by the fact 
that once it was determined that the lab notebook had never 
been maintained from the outset, the contractor and the USGS 
and the Department decided to compromise the requirement using 
an alternate document, which in our view was an unacceptable 
remedy to the problem.
    Mr. Porter. So how do you define the difference between 
intentional negligence and something that's criminal; how do 
you define the difference?
    Mr. Friedman. Well, there are questions of intent, Mr. 
Chairman, there are questions of materiality that are key, and 
those are the essence of the items that I would identify to 
you.
    Mr. Porter. It appears to me there was intentional behavior 
to not keep track of this science so no one would be able to 
check it in the future, and it appears to me that's 
intentional, is that what you're saying, that it's intentional?
    Mr. Friedman. I could not reach the conclusion that there 
was an intent to not participate in the lab notebook 
requirement for some nefarious reason as to the future ability 
to track the work. I can't reach that conclusion, Mr. Chairman.
    Mr. Porter. Also, you mention the 6-year delay in servicing 
is and dealing with the controversial e-mails, those are 
inconsistent with sound quality assurance protocols. You go on 
to say we could not find a satisfactory explanation as to why 
the e-mails had not been recognized as problematic years 
earlier. This would allow the Department to address the 
concerns raised by the contents of the e-mails in a timely 
manner.
    Despite this, the comments--and I'm paraphrasing and moving 
ahead on your comments because you know them better than I do, 
but despite this the comments and e-mails appears to have gone 
unchallenged. Additionally, internal quality assurance reviews 
over the years failed to identify the questionable e-mails.
    Again, can you explain to me a little bit more about what 
you're saying here?
    Mr. Friedman. Yes. Six years obviously has passed, Mr. 
Chairman, since the original offending e-mails were written. 
And in that 6-year period you referred earlier, or Mr. Gibbons 
did, to the turnover in personnel--maybe it was you, Mr. 
Chairman--people have minds, memories have faded, people have 
moved on, documentation is no longer available. And the point 
that we are trying to make is that if these offending e-mails 
had been identified contemporaneously or very close to the time 
that they were in fact written, minds would have been fresh, 
memories could have been fresh, the Department could have 
addressed the issues very promptly and saved a great deal of 
turmoil that has occurred as a result. So our point is that 
there was reason to believe--we had testimony to suggest that 
quality assurance people had in fact seen the e-mails, and yet 
for some reason the light bulb did not go on or they did not 
bring those to anybody's attention until a 6-year period had 
elapsed.
    Mr. Porter. The genesis of the project is that Yucca 
Mountain was chosen because the mountain may provide some 
natural barrier to prevent filtration--or infiltration of 
moisture into the storage which could then contaminate ground 
water. And the genesis of the science is that the mountain is 
safe, and that there is minimal, if any, infiltration of 
moisture. Again, in your report you mention that control files 
relating to the simulation of net infiltration from modern and 
potential future climates, AMR was not maintained in accordance 
with Data Management System's requirements, and that during the 
evaluation of AMR for the simulation of net infiltration from 
modern and potential future climates the team wasn't able to 
reproduce the model due to the absence of certain control 
files. Can you explain your findings under that No. 3?
    Mr. Friedman. I can, Mr. Chairman. In recent years there 
was an attempt made to reconstruct that model, to evaluate it 
further and to see whether it withstood the test of time. When 
they tried to recreate it, they found that there were certain 
control documents which they could not find in the master 
control file. And of course in a $9 billion project overall you 
would anticipate that would be absolutely essential. Ultimately 
the files were located in the residence of one of the 
participants--or at least part of the files were found there.
    Mr. Porter. Thank you.
    Mr. Gibbons. Mr. Chairman, I'm a bit taken aback by some of 
the answers we've gotten today because I expected a little more 
of being able to bridge between the problems of the quality 
assurance issues that have been described by either DOE or the 
GAO in their development of the program and the policy here at 
Yucca Mountain. But I'm more troubled by the fact that we are 
here in Congress and we are trying to bridge and overcome these 
quality assurance issues, and you know, it seems to me right 
now that we've kind of got the cart before the horse. You know, 
we've seen a lot of problems with the scientific analysis 
coming up, maybe they weren't intentionally changed or 
fraudulently put out there, and that did not give rise to a 
criminal action, but it does give rise to some serious 
concerns, concerns as a scientist myself, as a geologist, as a 
mining geologist, it gives rise of concern to me that perhaps 
those that were in charge of doing the science work and those 
who actually performed that science didn't have in their bag of 
work ethics the right motivation to be doing what they should 
have been doing on this project and simply took shortcuts. If 
that's the case, we've obviously got some serious problems 
here, or if they just simply said if they want more quality 
assurance I'll go write more quality assurance. Nonetheless, 
there's some real serious quality assurance problems here that 
haven't been answered adequately in my mind.
    There is also this question about the new piece of 
legislation which DOE is supporting before this Congress in an 
effort to overcome some problems that they can't meet today. 
And I think unfortunately I'm still of the opinion that this 
project that's fatally flawed, that no matter how much you move 
the goalpost to make it work, no matter how many times you 
change the standard to make something fit, no matter how many 
times you get a bigger hammer to fit a square peg in a round 
hole, it's still going to be a square peg in a round hole. And 
I think the bill that's before us is an unconstitutional 
usurpation of the States' sovereign prerogatives, whether it's 
in Nevada, but it sets a horrible precedence across this 
country because you're forcing communities, you're forcing 
States to give up traditional jurisdiction under the 
Constitution of areas that they normally had authority to 
regulate. It circumvents the scientific flaws that these people 
here have already said have existed and have a history of 
existing. It deprives the States, as I said, and localities 
nationwide for the role in waste transport. It exonerates the 
Department of Energy from traditional regulations for nuclear 
projects.
    I think what we are doing here is getting the bigger hammer 
out and we are trying to make everything fit. As a geologist, I 
can't accept it. First of all, to build Yucca Mountain in a 
safe place or build a project at Yucca Mountain that is 
supposed to be geologically stable should at first raise the 
flags automatically when it was a mountain. You know, it didn't 
get there, it didn't get to be a mountain by some placid 
tectonic activity. It's got serious geologic problems, and we 
don't have the vision to look down the road and say when those 
are going to reoccur. We are hoping that the blindness--with 
blinders on that we will somehow get past this, wash our hands 
of it and say out of sight, out of mind, we are done, and oh, 
by the way, let's make it bigger so we can take in everything.
    What's happening here today is that, because of the NIMBY 
syndrome--and I have to admit, it's in Nevada, we don't want it 
in our back yard, no other State wants it in their back yard, 
but we've failed to meet, I think, this country's expectations 
of how to deal with nuclear energy, and it will result in the 
end of nuclear energy in this country if the Department of 
Energy is allowed to complete Yucca Mountain.
    So my view, Mr. Chairman, is that the bill is fatally 
flawed, the project is fatally flawed, the concepts of how to 
deal with nuclear waste are fatally flawed. It has for 30 years 
had blinders on to just go forward with this, to make sure the 
deep geologic burial, according to the Nuclear Energy 
Institute, accommodates all of those power plants that want to 
close down or are closed down, but it doesn't meet the safety 
requirements that this country and this public expect. And I'm 
sad, saddened by the day that we sit here in here and talk 
about changing the standards, eliminating the oversight, giving 
unlimited jurisdiction to a department who's got sole 
responsibility for this type of occurrence. And it's worse than 
the chicken watching the fox--or the hen--excuse me, the fox 
watching the chicken house--I'll get that yet.
    And so, Mr. Chairman, I want to thank you again for your 
leadership. I have no more questions about this. I haven't 
heard anything that allows me to get a better feeling for 
what's going on, but I do appreciate the fact that you've 
invited me here today, and I appreciate the fact that you have 
allowed me to participate in this hearing.
    With that, I want to thank all of our witnesses. I know you 
have tough jobs ahead of you, just as we have tough decisions 
to make, and I appreciate the fact that you have been here 
before us and responded to our questions.
    Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you, Congressman. I'd like to ask just a 
couple more questions.
    And Mr. Wells, again, thank you for being here. I did not 
want you to feel like we left you out of this debate----
    Mr. Wells. No problem.
    Mr. Porter. But I know that you and your staff spent a lot 
of time and we greatly appreciate it, and on behalf of the 
American people we appreciate it.
    GAO has investigated quality assurance in Yucca Mountain 
for 20 something years. And the title of the 1988 report was 
Repository Work Should Not Proceed Until Quality Assurance Is 
Adequate. Now this is 1988. In light of the GAO's extensive 
work, why do you think DOE is still experiencing these same 
problems, since 1988, the same problems?
    Mr. Wells. You know, I think it goes back to--it was 
encouraging, everyone in the room probably picked up on Mr. 
Gulan's statement that their goal was to have early detection 
of these problems; and we have--since 1988 people have gone in 
and looked and found problems that seemed to--quality assurance 
problems that seemed to fester under the surface for a lot of 
years and under the radar screen, and all of a sudden they 
accumulate and they explode, and then the Department of Energy 
jumps to some type of fix, and it's rework and it's expensive. 
And you have to ask yourself why does that happen. And you 
know, consistently talking to the audit teams that have looked 
at the Yucca Mountain project and the quality assurance 
program, consistently we hear things with the culture, the 
importance of QA not being as high as the importance of meeting 
a schedule, or the ability to think that if it's wrong somebody 
else will find it and fix it later. And I think Mr. Gulan's 
commitment to change the culture is on the right track, to 
elevate the importance of quality assurance to keep these 
problems from festering so long. It shouldn't take 6 year e-
mails to discover that they occurred; it shouldn't take the NRC 
to observe an audit and point out that the equipment they're 
using hasn't been calibrated in years. It's that culture that's 
unacceptable and it has to be changed.
    Mr. Porter. Thank you, Mr. Wells. And I find it truly 
amazing that we are talking about high level nuclear waste, and 
again, whether you're for or against Yucca Mountain, the fact 
that these questions of safety keeps coming up, it's nuclear 
waste, it's not about a bicycle plant someplace in Des Moines, 
we are talking about high level nuclear waste, a science that's 
untested, and continually questions of safety. And again, I 
appreciate your comments, Mr. Wells.
    Ms. Federline, another question for you, please. Is this 
turnover of management, 9 of 17 key positions and 3 directors 
in a short period of time, is that a concern for the NRC?
    Ms. Federline. Well, I think overall the NRC feels that the 
perspective of QA at DOE is very important; in other words, 
finding problems is not the problem; a good QA program will 
normally find problems. The issue with us is those problems 
need to be quickly fixed and they need to be prevented from 
recurrence. And those are two aspects that we want to emphasize 
to DOE. And they need to put in place an organizational 
structure which they feel will be effective in making those 
corrections and seeing that the problems don't reoccur.
    Mr. Porter. I see Congresswoman Eleanor Holmes has left. 
I'd like to just ask a couple of additional questions.
    Mr. Gulan, regarding the turnover of staff, 9 of 17, were 
any of those individuals asked to leave?
    Mr. Gulan. No. We did not renew a limited term SES 
appointment, but the people that you talk about left on their 
own volition.
    Mr. Porter. So there was no encouragement on the part of 
DOE for any of these individuals, it was just purely attrition 
and retirement?
    Mr. Gulan. Basically, sir.
    Mr. Porter. So then who has been held accountable for 
information that's been provided today? Has anyone been held 
accountable?
    Mr. Gulan. Yes, they have. And there are people who are no 
longer working on this project.
    Mr. Porter. You just moved them to another project, 
somewhere in the nuclear industry?
    Mr. Gulan. No. There's been folks in the contract or 
organization who are no longer part of this project, sir.
    Mr. Porter. And they're still working for the Federal 
Government?
    Mr. Gulan. I don't know, sir. They don't work on this 
project.
    Mr. Porter. OK. Is there a way that we can find out?
    Mr. Gulan. Sure. We'll take that question for the record.
    Mr. Porter. I appreciate that. Thank you.
    I guess in closing, Mr. Gulan, I'll ask you a question. 
Based on the findings of GAO and the Inspector General's 
office, in discussions today and in prior discussions, how can 
you say that we can assure the American public that Yucca 
Mountain is and will be safe?
    Mr. Gulan. Sir, that's our--the burden is on us to 
demonstrate to you and to the American public that we can 
operate Yucca Mountain safely. There is an established process 
through the Nuclear Waste Policy Act, through the licensing 
process that will be a very public process, the regulator being 
the Nuclear Regulatory Commission. So there is a formal 
process. But before we get to that formal process there is a 
process within the Department. Before we submit a license 
application it has to pass our standards. And one of the things 
that we didn't talk about today is the fact that we have not 
talked about a schedule of when the license application will be 
submitted.
    I mentioned earlier in my testimony, Secretary Bodman gave 
me clear instructions, make it simpler, make it safer, and 
improve the quality and culture of this organization. Those 
were his marching orders to me, sir, and we are following that.
    After we review everything from the model down through the 
design basis for the facilities, the safety analysis, the 
seismic analysis and develop our license application, it's our 
intent to conduct our internal reviews, our internal 
independent reviews to ensure that our standards have been met, 
to ensure that our quality standards have been met. And only 
after our standards have been met will we be in a position to 
submit our licensing application to the Nuclear Regulatory 
Commission for them to adjudicate the licensing process here. 
So there are standards that have to be met in this 
organization, and the bar is set high, before we send our 
application request in to the Nuclear Regulatory Commission.
    Mr. Porter. So once the application is submitted, is it the 
NRC's responsibility to determine if it's safe or is it DOE's?
    Mr. Gulan. It's the Nuclear Regulatory Commission's 
responsibility to adjudicate that process, it's not ours.
    Mr. Porter. So you don't accept responsibility if it's 
safe----
    Mr. Gulan. No. I accept responsibility. It is my 
responsibility that we submit a high quality license 
application that our standards have been met. It's the NRC's 
job then to evaluate on whether or not they issue us a license 
to construct, and then subsequently a license to receive and 
possess; but it's our responsibility to meet our standards 
first.
    Mr. Porter. You know, I can remember growing up many, many 
years ago--and I'm not sure if this cartoon is still around, it 
was Family Circle. Steve, is it still in the paper, the Family 
Circle?
    Mr. Castor. Yes, it's in the Washington Post, sir.
    Mr. Porter. Thank you. I haven't had a chance to look at 
the cartoon pages as much as I'd like to, but there was this 
cartoon, the Family Circle, and these kids were around saying 
not me, not me, not me, not my fault, not my fault, not my 
fault. And my biggest concern--again, whether you're for or 
against Yucca Mountain--is that someday we are going to wake up 
and 2000 DOE employees are going to say it wasn't my job, NRC 
may wake up and say it wasn't our job, even though there was a 
major catastrophe or major accident, and everyone is going to 
go, not me. And I sense that time and time again, as I hear the 
facts that are presented, that so far your decisions have not 
been based upon sound science at the Department of Energy. The 
White House, multiple administrations, have based decisions on 
what they believe is sound science, this Congress is basing 
decisions that are based upon what they feel are sound science, 
and I have yet to hear the Department of Energy is using sound 
science. It appears to me that there is a rush--20 years, but 
there's a rush to appease the nuclear industry, there's a rush 
to appease certain Members of Congress and certain 
administrations, and there's a rush to get the job done. And 
Mr. Gulan, I would just hope that someday Department of Energy 
officials don't wake up and say not me, because I'm very, very 
concerned.
    Mr. Gulan. You won't hear those words from my mouth, sir.
    Mr. Porter. Again, I want to thank you all for being here. 
We will continue our investigation. We still have numerous 
documents to review.
    I appreciate Mr. Wells, Mr. Friedman, Ms. Federline and Mr. 
Gulan for being here today, and look forward to continued 
testimony in the future. We will be forwarding additional 
questions that we'd like to have answers for the record. So 
with that, we'll adjourn the meeting. Thank you all very much.
    [Whereupon, at 3:38 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Danny K. Davis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
